                                   SOCIAL SECURITY
MEMORANDUM


Date:   February 3, 2004                                              ICN-34035-23-544

To:     The Commissioner

From:   Inspector General

Subject: Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)



        The attached final report presents the results of our audit. Our objective was to
        evaluate the Office of Hearings and Appeals’ Megasite operations, including the case
        folder inventory system.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                 James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




     OPERATIONS OF THE
     OFFICE OF HEARINGS
    AND APPEALS MEGASITE


 February 2004    A-12-03-13039




 AUDIT REPORT
                                    Mission


We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE

Our objective was to evaluate the Office of Hearings and Appeals’ (OHA) Megasite
operations, including its case folder inventory system.

BACKGROUND
The Social Security Administration’s (SSA) disability hearing process begins after an
applicant for benefits is denied at the initial and reconsideration level. The next step in
the appeals process is a hearing before an Administrative Law Judge (ALJ). The final
step rests with the Appeals Council and Administrative Appeals Judges. To review the
ALJ’s decision, SSA must ensure that all case folders are accurately tracked.

Hearing Offices send folders with unfavorable decisions to the Megasite in Springfield,
Virginia. We conducted our sample test of the inventory of folders stored in the
Megasite in January 2003, at which time there were approximately 200,000 folders
stored there. The Megasite serves as the Office of Appellate Operations’ off-site active
claims folder storage facility. The ability of the Megasite’s physical and computer
inventory tracking system to accurately and quickly identify and locate the claimant’s
folder and shelf position is critical to the timely processing of appealed claims.

RESULTS OF REVIEW
Prior to our audit, OHA purchased computer technology and equipment to scan folders
using an automated bar coding system. Installation was ongoing as we completed our
field work in May 2003. In July of 2003, OHA management informed us that the new
computer inventory system had been implemented and folders stored in the Megasite
have bar-code labels and are in the new inventory system. Some of the manual
processes we audited have been replaced by this new automation. We plan to review
the new system to determine if it effectively tracks folders and provides the
technological support to better safeguard folders stored in the Megasite.

The previous Megasite folder inventory system did not allow OHA to account for all
folders stored at the Megasite. The loss of folders jeopardizes the safekeeping of
sensitive, personal information and bears directly on the timeliness of appeals reviews
and subsequent award of benefits. At the time of our audit, the Megasite had an in-
house computer tracking system called the Megasite Case Control System (MSCCS). It
now uses an upgraded system called the Enhanced Megasite Case Control System.
According to Megasite management, MSCCS did not have the systems capacity to hold
the large amount of folder information stored in the Megasite. As new claim folder
information was added or deleted into MSCCS, excessive demand on internal memory
caused the system to crash frequently and, inadvertently, about 3 percent of data was
not tracked.


Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                i
We assessed the accuracy of the computer inventory records in MSCCS and the
retrieval of folders at the Megasite. Due to inadequate inventories, OHA could not track
all folders stored, transferred, or disposed of during the Appeals Council’s adjudicative
review process. We project that OHA could not locate as many as 10,100 folders. In
addition, 8,700 folders may not be in MSCCS, and 7,300 folders were in MSCCS, but
may be physically located on the wrong shelf.

CONCLUSIONS AND RECOMMENDATIONS
The Megasite’s physical and computerized inventories we tested were not accurate.
OHA’s planned efforts to improve the records management accuracy at the Megasite
are timely because folders were susceptible to loss or misplacement. The accuracy and
completeness of the physical inventories conducted needs improvement, and a physical
records management program needs to be developed to provide timely and accurate
data on the number of folders and their physical location.

We provided seven recommendations to SSA to improve its method of storing folders
and their contents. The recommendations also include establishing written procedures
for inventories and developing inventory reports.

AGENCY COMMENTS
SSA agreed with six of our seven recommendations. SSA did not agree with our first
recommendation. SSA is taking action on the other six recommendations. The text of
SSA’s comments is included in Appendix C.




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)             ii
                                                            Table of Contents
                                                                                                                   Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

Automated Inventory Records Incomplete ..............................................................4

Missing Folders .......................................................................................................6

Megasite Physical Inventory Lacks Basic Controls .................................................8

Disability Program Branches Missing Folders .......................................................10

CONCLUSIONS AND RECOMMENDATIONS.....................................................13

APPENDICES

Appendix A – Scope and Methodology

Appendix B – Sampling Methodology and Results

Appendix C – Agency Comments

Appendix D – OIG Contacts and Staff Acknowledgements




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)
                                                                    Acronyms
 AAJ               Administrative Appeals Judge
 AC                Appeals Council
 ALJ               Administrative Law Judge
 CA                Civil Action
 CCPRB             Court Case Preparation and Review Branch
 CFR               Code of Federal Regulations
 CICS              Customer Information Control System
 DO                District Office
 FY                Fiscal Year
 GAO               General Accounting Office
 HO                Hearing Office
 MSCCS             Megasite Case Control System
 OAO               Office of Appellate Operations
 OHA               Office of Hearings and Appeals
 RR                Request for Review
 SSA               Social Security Administration
 SSN               Social Security Number
 UTL               Unable to Locate




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)
                                                                 Introduction
OBJECTIVE
Our objective was to evaluate the Office of Hearings and Appeals (OHA) Megasite
operations, including its case folder inventory system.

BACKGROUND
OHA is one of the largest administrative adjudicative systems in the world. There are
two primary organizational components of OHA. The first level of administrative appeal
is handled within Hearings Operations, where a claimant is afforded an opportunity for a
hearing and a decision by an Administrative Law Judge (ALJ).1 Cases involving
disability under the Disability Insurance program (Title II) and the Supplemental Security
Income program (Title XVI) account for approximately 90 percent of OHA’s work.

The second and final level of administrative appeal is handled within the Office of
Appellate Operations (OAO), where the Appeals Council (AC) affords a claimant an
opportunity for a record review of the ALJ’s decision. At the last decisional level, the AC
renders the Agency’s final decision.2 In Fiscal Year (FY) 2002, the AC reviewed and
decided over 115,000 cases.

One of the Social Security Administration’s (SSA) highest priorities is to assure the
integrity, independence, fairness and effectiveness of the Social Security disability
hearing process for those it serves. At the AC, fairness requires that all adjudicators
assess a disability claim using the same legal standards, and the claim should be
awarded to claimants as soon as their disability has been determined under law. To
meet these standards, OHA needs to ensure that all disability folders are accurately
received, tracked, stored, and afforded an opportunity for a timely record review of the
ALJ’s decision and are not lost or misplaced in the process.

When claimants receive unfavorable hearing decisions at the ALJ level, Hearing Offices
(HO) send the folders to the Megasite in Springfield, Virginia. The Megasite serves as
OAO’s off-site active claims storage facility and repository for all folders processed by
the AC. The folders are stored pending the possibility that the claimant may wish to file
an appeal of the ALJ decision, or the dismissal order is wrong. Approximately
40 percent of claimants who received an unfavorable decision file an appeal for the AC
to review the ALJ decision.

Each claim constitutes a basic record for payment and determination under the Social
Security Act. The AC review is based on the content of the folder, and it is imperative
that the folders are accessible to the AC timely and are not misplaced or lost.


1
  20 Code of Federal Regulations (CFR) §§ 404.929 et seq. and 416.1429 et seq., Hearing Before An
Administrative Law Judge.
2
  20 CFR §§ 404.966 et seq. and 416.1466 et seq., Appeals Council Review.
Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                           1
Folders stored at the Megasite are retained anywhere from 6 months to 2 years
depending on whether the claimant files an appeal at the AC or civil court level.3
Folders at the Megasite include: 1) claims that are pending a potential appeal for
review of the ALJ decision; 2) claims with a request for review of the ALJ decision;
3) new civil court cases pending a civil action; and 4) copies of claims filed in civil suit in
Federal District Court. Once folders are delivered to the Megasite, they are shelved
randomly as space is available throughout the warehouse on 1 of the more than
18,000 shelves. At the time we conducted our audit, there were approximately
200,000 folders stored at the Megasite in January 2003. The Megasite can hold
approximately 300,000 folders on its shelves. Detailed information on the scope and
methodology of our audit is contained in Appendix A.

Prior to implementation of the new bar-coding system, as folders were shelved,
Megasite staff wrote the shelf location and Social Security number (SSN) on work
sheets. This information was (and still is) entered manually into a computer inventory
tracking system. Folders stored at the Megasite are moved between the AC and
Megasite during different stages of the appellate process and/or released to permanent
SSA storage outside the Megasite. Until we conduct a follow-up audit, we cannot
determine whether the bar-coding system corrects the problems discussed in this
report.




3
 Megasite management establishes the retention times in accordance with 41 CFR § 102-193.5 et seq.
and to accommodate the appeals process.

Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                        2
                                              Results of Review
The Megasite case folder inventory systems in place prior to July 2003 did not provide
OHA the ability to account for all folders stored at the Megasite. Specifically, our audit
found that:

1) the computer inventory tracking system tested during our audit was technologically
   inadequate and records were missing from the data base;
2) the physical inventory lacked management controls and procedural standards, such
   as written reports and records, to show how the inventory is organized and how
   physical inventory counts are conducted;
3) the documents reconciling discrepancies between the computer and physical
   inventories were not retained;
4) the computer system we tested was used as the inventory “control,” and all
   corresponding adjustments from the physical inventories were re-entered in the
   computer inventory system, which did not retain all data; and
5) there was a lack of oversight of folders released from the Megasite to the AC, i.e.,
   some folders were erroneously coded as having been sent to the branches, but in
   fact, were never delivered there and many were missing.

Without adequate computer and physical inventory systems, many folders were lost or
misfiled. Due to the inadequate inventories, OHA cannot track folders stored,
transferred, or disposed of during the AC’s adjudicative review process. We project that
approximately:

      •   7,300 folders may not be readily located because the wrong shelf location is
          recorded in MSCCS;
      •   10,100 folders listed in MSCCS may not be located on the shelves; and
      •   8,700 folders may not be inventoried at all in MSCCS.

As a result of missing and misfiled folders, AC decisions and actions are unnecessarily
delayed because folders are not readily accessible to the AC. In FY 2002,
29,542 claims were remanded, which represent about 25 percent of all appealed
claims.4 Generally, claims are remanded because the claim was not legally sufficient,
and a new hearing is held at the HO level. However, claims for which a folder cannot
be located are also remanded, and the folder content has to be reconstructed. OHA
could not provide information on the number of claims remanded due to missing folders
because it does not track such information. OHA management estimated that
approximately 1,500 claims are remanded because all or a part of the folder is missing.




4
    OHA’s Key Workload Indicators, FY 2002.

Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                3
According to a consultant for OHA, the cost to remand a claim is $1,882 ($579 per
preparation work and $1,303 for the second hearing).5 Remands due to missing folders
cost SSA approximately $2.8 million dollars a year. Missing folders are a significant
concern that produces avoidable workloads and delays benefits to individuals.

In addition to the increased workload from conducting new hearings and the cost to
reconstruct lost records, these delays seriously affect the public’s confidence in SSA’s
ability to serve the public. Each folder lost also holds sensitive information such as the
name and SSN of the claimant. Other sensitive documents supporting findings of fact
regarding entitlement, such as medical and earnings histories, family living
arrangements, and information from third parties including social service agencies,
Internal Revenue Service, Department of Veterans Affairs, and mental health providers
are also lost. OHA can improve the oversight and integrity of folders stored at the
Megasite by establishing effective physical inventory controls and ensuring that the
newly installed computer technology adequately tracks the data for each claim folder
stored there.

AUTOMATED INVENTORY RECORDS INCOMPLETE
To evaluate the inventory tracking system at the Megasite, we first gained an
understanding of the computer system used up until mid-July 2003, to record and track
folders stored there. The in-house computer inventory system, MSCCS, is the principal
records control point. Any inventory adjustments to cleanse or reconcile inventory data
following a physical inventory are entered in MSCCS. When we conducted our audit,
there were approximately 200,000 folders actively stored at the Megasite, according to
Megasite management.

Each day, Megasite staff receive and shelve new folders on available shelf space. As
they are shelved, Megasite staff wrote the shelf location and SSN on work sheets.
Work sheet content was then entered manually into MSCCS by the Megasite staff
person or one of three team leaders who oversee their respective teams. There are
approximately 40 staff members who enter data into MSCCS manually. They also
update MSCCS as the folder is transferred to the AC’s branches for review. If the claim
is denied at the AC level, it is returned to the Megasite. Since the case is pending civil
litigation, it is coded as such and remains there for 6 months pending an appeal.
Folders are released to permanent SSA storage when the retention period at the
Megasite has expired as long as an appeal has not been filed for civil litigation in
Federal District Court.

The Megasite initially stores the folder pending a request from the claimant for the AC to
review the ALJ’s action. Usually a “Request for Review” (RR)6 form is filed and sent to
1 of the 24 Disability Program Branches that makes up OAO. The folder is reviewed by

5
  Preliminary Return on Investment Analysis, Office of Hearings and Appeals, Booz Allen Hamilton,
January 31, 2002.
6
  The most common method to file an appeal is by filing a Form SSA-RR. The forms can be (1) faxed or
mailed to OAO Headquarters or to the Branches directly; or (2) filed in an HO or District Office (DO) and
then the HO or DO mails or faxes the form to OAO.
Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                               4
an Administrative Appeals Judge (AAJ) who makes the final decision on the case. A
computer system internal to the AC, the Appeals Council Automated Processing
System, updates MSCCS twice a week and enters data once an RR is filed in 1 of the
24 branches.

The MSCCS computer tracking system was implemented in 1998. MSCCS was
designed in Microsoft Access which is SSA’s Systems approved software for locally
designed computer applications. The volume of folders and records grew as the
increase in disability appeals doubled from the mid to late 1990’s. The computer
system was not designed to hold the number of records stored in MCSSC nor designed
for the number of simultaneous users. Consequently, MSCCS lacked the internal
memory capacity to hold such a large volume of records or support the number of staff
using it.

As the number of records grew at the Megasite, the system would potentially crash daily
due to excessive demand on internal memory. Due to the large volume of records
stored, the systems administrator routinely shut down MSCCS to avoid the computer
crashing—often as many as 3 times a day to compact data. Compacting data can be
done safely only when access to the file is suspended.

Megasite staff spent up to several hours a day in MSCCS downtime while the system
compacted data, during which time Megasite and AC staff were unable to use MSCCS.
We observed MSCCS downtime during five of our visits to the Megasite. If the folders
were stored on shelves in a logical order, such as by SSN, then staff could find folders
when MSCCS is idle or losing records. In addition, it would be very easy to tell that a
folder is in the wrong place by spot checks.

Despite efforts to compact data, OHA estimates that approximately 3 percent of folder
data was routinely lost at any time from the data base. Information about the folder
location, SSN of the appellant, and the status of the request for an appeal could be
randomly missing from the computer inventory system at any time.

It is not possible for the AAJ to conduct a review without the record of events affecting
entitlement. The AC process involves review of all previous evidence and review of the
ALJ’s most recent decision and any new evidence submitted to the AC. Consequently,
when folders stored in the Megasite cannot be located within a certain time frame,7 the

7
 Hearings, Appeals and Litigation Law manual I-3-0-71 OAO Branch Procedures. After the OAO
branches exhaust all claim file location leads or after a 60-day search period (20-day for “critical” cases,
which includes terminally ill claimants), which ever comes first, the Branches initiate the reconstruction
process by:
    • obtaining a copy of the ALJ’s decision and exhibit list if not already available;
    • notifying the representative or claimant that the original file cannot be located and must be
        reconstructed, and simultaneously providing the representative or claimant with a copy of the
        exhibit list and asking each to furnish copies of any listed documents in their possession;
    • following up on all requests for documentation at 20-day (7-day for critical cases) intervals;
    • if necessary, requesting the cassette from the Computer Cassette Library; and
    • reviewing case locator queries at 30-day (10-day for critical cases) intervals and following up on
        all new leads to the location of the original file.

Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                                  5
AC reconstructs the complete disability case folder and remands the claim back to the
HO for a new hearing.

In reconstructing folders, OHA must pay for all charges from medical experts, vocational
experts, and other sources for supplying medical and other evidence if the
representative or claimant cannot furnish copies of his or her documents in the folder.
Although OHA does not track missing folders, OHA management estimated that during
FY 2002, approximately 1,500 claims were remanded because the folder, or some
portion of it, could not be located.

OHA took steps to resolve the systems’ inadequacies.8 In March 2003, OHA began
implementation of new technology with an upgraded computer system and bar coding
equipment to scan in folders. Implementation was completed in mid-July 2003.
Currently, all folders processed in the Megasite are tracked in the new computer
system. We plan to review the new system to ensure that it effectively tracks folders
and provides the technological support needed to safeguard the folders stored there.

MISSING FOLDERS
We assessed the accuracy of the previous automated inventory records and whether
folders could be retrieved at the Megasite. Our assessment had two components, each
of which involved statistical sampling (see Appendix B). First, we pulled 300 folders and
compared the actual shelf location to what was shown in the computerized inventory to
determine whether all folders were recorded. Second, we tracked 300 folders from the
computerized inventory to determine whether the actual shelf location was correctly
reflected in MSCCS.

TEST FOR UNRECORDED FOLDERS

On January 23, 2003, we pulled 300 folders in our sample from their shelf location and
reviewed MSCCS information to determine the correctness of the data. We found that
13 (4.3 percent) folders taken from the shelves to trace to MSCCS were not recorded in
the MSCCS inventory. We project that as many as 8,700 folders may not be
inventoried in MSCCS.

All folders contained unfavorable decisions, and as such, they met the criteria for
storage at the Megasite. In addition to the 13 folders mentioned above:

    •   2 folders had documents that did not match the SSN on the front cover, and
    •   1 folder had documents that did not match the claimant’s name on the front
        cover.

We also found, in our statistical sample of the physical inventory of folders, that
11 (3.6 percent) folders were on a different shelf location than recorded in the

8
 OHA purchased a Radio Frequency Bar coding system and changed the data base platform from
Microsoft Access to Sequel Server. Sequel Server has greater memory capacity and serves as a data
base program and server.
Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                           6
computerized inventory. We project that approximately 7,300 folders may not be readily
located because the wrong shelf location is recorded in MSCCS.

TEST FOR MISSING FOLDERS

From our sample of 300 computerized records taken January 28, 2003, we found
16 (5.3 percent) folders selected from the computerized inventory were missing from the
shelf. We estimate that as many as 10,100 folders that were listed in MSCCS cannot
be located on the shelves.

All 284 of the folders we found contained unfavorable decisions, and as such, they met
the criteria for storage at the Megasite. In addition to the 16 folders mentioned above:

    •   3 folders had documents that did not match the SSN on the front cover,
    •   2 folders had documents that did not match the claimant’s name on the front
        cover, and
    •   1 folder had an unanticipated error in which Megasite staff entered the claimant’s
        name incorrectly into MSCCS.

We showed the claim folders and explained the problems described above to Megasite
staff. The staff corrected the SSN and shelf location in the folders and appropriately
updated MSCCS.9

                       SSA strives to deliver the highest level of service by making fair,
Lost Folders Delay     consistent, accurate and timely disability determinations at all
Benefits and           adjudicative levels and SSA’s disability programs have been
Increase               growing and are poised to grow even more rapidly. A recent
Processing Times       General Accounting Office (GAO) report10 states that SSA has
                       been working for years to improve the disability process, yet the
quality and timeliness of disability decisions remain one of SSA’s greatest challenges.
By 2010, SSA expects workers’ applications for Disability Insurance to increase by as
much as 32 percent over 2000 levels.

We believe that the complications from missing folders compound the history of
problems in this area by adding unnecessary time and costs to the adjudication process
and by delaying benefits to individuals awaiting appeals determinations. OHA’s
command of this problem is limited because it does not track the number of lost folders
and therefore cannot determine the total cost to reconstruct them. OHA can achieve
improvements in the timeliness of reviewing claims and accelerate the initiation of
disability payments to those whose appeals result in reversals of OHA denials.



9
   We also noted five invalid SSNs in the MSCCS data base that started with an “8” or “9.” The SSNs had
been improperly coded in the HO or MSCCS. We brought this to the attention of Megasite staff, and the
correct SSNs were entered in MSCCS.
10
   GAO Performance and Accountability Series, Major Management Challenges and Program Risks,
Social Security Administration, January 2003. (GAO-03-117).

Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                           7
OHA recently enhanced the technological processes to support inventory operations at
the Megasite. Establishing an effective physical records management system in
compliance with physical inventory standards11 would further improve physical
inventories and safeguard folders from loss. Reducing the number of remands due to
missing folders would lower hearing office backlogs and improve customer service.

MEGASITE PHYSICAL INVENTORY LACKS BASIC CONTROLS

We reviewed how the Megasite conducts physical inventory counts prior to the
implementation of the new computer tracking system. Folders delivered to the Megasite
are filed randomly on available shelf space on 1 of the more than 18,000 shelves in the
Megasite. The Megasite conducts two types of inventories: 1) the 100 percent
inventory and 2) random inventories of what remains on shelves once folders with
expired retention dates have been released from the Megasite. Both inventories are a
labor intensive process.

100 PERCENT INVENTORY LACKS DOCUMENTATION

                               The first type of inventory is referred to as a 100 percent
 Physical Inventories          inventory. Megasite managers prepare lists from MSCCS,
 Do Not Result in              which include the SSN and folder shelf location on each of
 Reliable Folder Counts        the 2,605 shelving units. Megasite staff go to the shelf
                               depicted by MSCCS and cross-check the MSCCS list
against what is actually on the shelf to ensure that all records are properly shelved.
Staffs on the three teams are assigned inventory tasks along with their regular work
duties. The inventories occur twice a year and take approximately 6 months to
complete.

Team leaders, from each of the three teams, direct staff to inventory certain shelves and
write down any discrepancies found between the MSCCS printed list and what is on the
shelf. A sticker showing the month and year the shelf is inventoried is placed on the
outside of the shelf.

Once inventoried, team leaders or other staff re-enter reconciliations from the work
sheets in MSCCS from the day the shelf was physically inventoried to a week later.
After inventorying a shelf, Megasite employees take corrective actions on existing
discrepancies by initiating a search for a missing folder and coding it as such in
MSCCS; or they properly shelve a folder and update MSCCS, send the claim to a
branch, or release a folder to an outside SSA storage facility if the retention period has
expired.

To test the accuracy of the 100 percent physical inventory and the assignment of
inventory locations, we asked Megasite management for the inventory plans and
procedures and the results of recently completed reconciliations. We found there are
no formal written inventory plans, schedules and/or written procedures about how the
inventory is conducted, nor are there reports to show that the actual physical inventory
11
     41 CFR § 102-193.5 et seq., Creation, Maintenance and Use of Records.
Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                8
changes were made. We could not ascertain which team inventoried the shelves, nor
could we assess the results of the inventory or even if it was completed at all because
staff shredded work sheets showing the inventoried shelves.

Management at the Megasite provided a memorandum dated April 2002, instructing
staff about procedures to reconcile folders that were missing or misfiled. We found that
the 100 percent inventory accuracy relies upon the initiative and integrity of individual
Megasite staff. The memorandum gave instructions to the staff for the following actions
when differences are found between the actual shelf location and MSCCS data:

•   If MSCCS shows the file is reading on another Megasite shelf, move it to that shelf.
•   If MSCCS shows the file is not on another Megasite shelf, query the Customer
    Information Control System (CICS) to determine if a RR or civil action (CA) is
    pending.
•   If an RR or CA is pending, update MSCCS and route the case to the branch.
•   If no RR or CA is pending and the Megasite holding period has expired, release the
    file for permanent storage and update CICS.
•   If no RR or CA is pending and the Megasite holding period has not expired, place
    the file on the Megasite shelf and update MSCCS.

Further, if a Megasite staff member finds that several folders are misfiled or missing on
a shelf they have just inventoried, they inform the Team Leader who will audit the shelf
again and assist the staff with corrective actions. However, OHA has not prepared
written documentation or implemented verification procedures over corrective actions
taken by staff on folders reconciled during these inventories.

RANDOM INVENTORIES UNCOVER LOST CASE FOLDERS

                                  The second type of physical inventory involves random
No Records Are Kept               audits of the folders on the shelves. Folders are stored
Showing Discrepancies             at the Megasite for varying lengths of time. When the
Between Shelf and                 folder storage period expires, staff pull folders from
Computer                          shelves and release as many as 5,000 from the
                                  Megasite in a week. An indicator in MSCCS marks all
                                  folders that should be released to outside storage
facilities. Team leaders print a list from MSCCS with files for release. Staff use these
lists to pull folders designated for release from the shelves. They pull folders from the
shelves and make a check on the list if the claims folder is found on the shelf. If it is not
on the shelf, they mark the missing folder on the list as Unable to Locate (UTL).

Management decides when to release files based on retention dates, amount of staff
available to release folders, and the need for shelf space. Once the shelf is purged of
all the folders that are marked for release, Megasite staff use the MSCCS shelf list to
cross check all remaining folders on the shelf. Only folders without a release indicator
should remain on the shelf and should be listed correctly in the MSCCS list.



Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                  9
These inventories are viewed by Megasite management as an effective way to audit
shelves and find missing and misfiled folders on shelves that are half emptied. Staff
told us that very often as many as 150 folders that were missing are found during these
audits for a single branch and sent to them. All differences found between the folders
on the shelf and on the computer inventories are re-entered in MSCCS. There are no
records of how many folders are found during inventories.

During both inventories, the cleansed and reconciled data from work sheets are entered
in MSCCS by Megasite staff. Yet MSCCS cannot retain all data entered, and any
reconciled new data could potentially be lost due to the former computer system’s
inadequacies. As of March 2003, MSCCS data showed 2,148 folders with a
UTL code--the last location of the folder is in the Megasite, but the folder cannot be
located there. We have no reliable account of the entire universe of folders stored at
the Megasite. The computer inventory is the perpetual “control” and according to OHA
staff, could not track data consistently. The staff are not required to retain physical
inventory work sheets showing discrepancies between shelf and computer.

We could not audit the physical inventory accuracy without written records, nor rely on
the computer inventory as a perpetual control because of the technological
inadequacies. Without a technologically advanced computer system and adequate
physical inventory standards, Megasite staff could not account for its folders. We tested
the security at the Megasite and found the building is physically secure. However,
folders that are not adequately tracked from receipt through disposal are subject to loss,
theft, or misuse.

DISABILITY PROGRAM BRANCHES MISSING FOLDERS

To evaluate the OAO’s overall satisfaction with the Megasite’s performance, we
interviewed 10 of the 24 OAO Branch Chiefs to obtain information and identify specific
problems related to requesting and receiving folders from the Megasite. Branch Chiefs
supervise each of the branches that process disability cases according to circuit court
geographic areas and SSN numeric breakdown.

The work performed in the branches is based exclusively on the documents in the
folder. Batches of folders are delivered from the Megasite to the branches every week.
Team leaders print out “pull lists” from MSCCS listing folders by SSN, RR date and
shelf location. Once the list is generated from MSCCS, the folders are removed from
the shelves at the Megasite and put in separate tubs and delivered to each branch.

Based on the dates of the request for review, 100-200 folders are delivered once a
week to each of the branches. In addition, branches also request individual folders from
the Megasite via fax, e-mail or telephone.

Our interview results showed that there are recurring problems with untimely receipt of
folders and missing folders. Half of the Branch Chiefs stated that they experienced



Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)               10
delays receiving folders they requested from the Megasite. The following causes were
cited:

•    Persistent computer problems with MSCCS resulting in lost records about folder
     location.
•    Folders incorrectly entered into other SSA mainframe systems which cannot easily
     be located or tracked down by the Megasite or branch staff.
•    Folders not sent timely to the Megasite from the Hearing Offices and OAO
     Branches.
•    Not all folders listed on the weekly “packing list” are delivered by the Megasite to the
     Branches.
•    Folders prematurely released from the Megasite to outside SSA storage facilities.
•    Folders filed improperly at the Megasite.

All of the branch managers stated that when they request folders from the Megasite or
when batches of folders are delivered from the Megasite, some folders cannot be
located. Six said that this happened frequently, and four said it did not happen often.

In March 2003, there were 665 folders that 9 of the branches had requested but
Megasite staff could not locate. We also interviewed a Branch Chief from one of the
two Court Case Preparation and Review Branches (CCPRB). The CCPRB could
provide only an aggregate number of folders they were unable to locate for both
branches. From October 2000 to May 2003, both branches were unable to locate
2,092 folders. Not all folders that are missing are located or found in the Megasite.

Staff in the branches actively track folders that are missing in SSA systems. Many
missing folders are coded in MSCCS as having been received in the Megasite, but
cannot be located there. To illustrate this problem, one of the branch chiefs showed us
three “packing lists” which had been removed from the tubs of recently delivered
incoming folders. The packing lists showed that 227 folders had been delivered to the
branch from the Megasite. However, when the folders were taken out of the tubs and
cross-checked with the packing lists, 92 folders were not in the tub, but were on the
packing list. Once a packing list is generated in MSCCS, it codes folders as being in a
specific branch. Folders are erroneously updated and coded as having been sent to the
branch from the Megasite, when in fact they have not.

The Branch Chief does not contact the Megasite when folders on the pull list are not
delivered, but presumes that they will be found during an inventory and sent to them, or
when one of the branch staff can track the folder in other SSA tracking systems. We
were told that once a folder was listed as being sent to the branch, but was not, it may
take up to 6 months to locate the folder, if it is found during an inventory.12



12
  The staff person assigned in this branch to locate lost folders has researched and reconciled the
whereabouts of over 460 folders since August 2002. Two hundred twenty folders have been recovered
and 22 were remanded because the original folder could not be located. As of May 2003, the branch was
missing 147 folders dating from 1998 through 2002.
Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                         11
To overcome some of the problems with folders that cannot be located in the Megasite,
three of the Branch Chiefs have standing orders to send all folders for their branches to
them to ensure better control over the folders, and because of reduced backlogs, they
now have the room to store them in the branch. As of March 2003, two branches have
staff working exclusively on finding missing folders.

Claimants waiting for a decision about their claim are generally unaware if the folder is
lost or misplaced unless they or their representative ask about the status of the claim.
Folders filed and assigned a physical location by SSN sequence could be retrieved and
accounted for in the event that the computer technology failed or the folder was
erroneously coded. Lost folders, or those folders that are misplaced for a certain
amount of time as a result of problems with tracking them, undermines the overall
effectiveness of the claims process and delays benefits to eligible claimants. It is
imperative that OHA’s newly installed computer inventory systems accurately account
for all folders stored and that physical inventory controls are in compliance with
inventory standards to prevent loss of folders.




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)              12
                                            Conclusions and
                                           Recommendations
The Megasite’s physical and computerized inventories we tested were not accurate.
OHA’s efforts to improve the records management accuracy at the Megasite are timely
because folders are susceptible to loss or misplacement. The loss of folders
jeopardizes the safekeeping of sensitive, personal information and bears directly on the
timeliness of appeals reviews and subsequent award of benefits. The accuracy and
completeness of the physical inventories conducted needs improvement and a physical
records management program needs to be developed to provide timely and accurate
data on the number of folders and their physical location.

RECOMMENDATIONS
We recommend SSA:

1. Store folders systematically by SSN, name, or other sequence rather than the
   current random method. (Based on further discussion with SSA, we are rescinding
   this recommendation.)

2. Ensure that all folders on the packing lists are sent to the branches.

3. Ensure that the new information technology provides timely and accurate tracking of
   folders in the Megasite.

4. Enhance accountability for records management by collecting information on the
   number of lost folders, remands due to lost folders, and cost to replicate missing
   documents.

5. Prepare written procedures for conducting physical inventory counts and for
   resolving inventory discrepancies.

6. Develop formal reports detailing the results of the 100 percent inventories and the
   random inventories showing: a) how and when physical inventories are conducted;
   b) who conducted them; c) the start and completion dates; d) the count of folders
   inventoried; and e) any discrepancies noted. Assign responsibility to review the
   reports and verify their accuracy.

7. Retain inventory work sheets for follow-up and quality control purposes.




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)               13
AGENCY COMMENTS
SSA agreed with six of our seven recommendations, but did not agree with our first
recommendation. SSA stated that changing the Megasite’s storage method from first
available shelf to numeric sequencing would be time-consuming and costly. SSA is
taking action on the other six recommendations. The text of SSA’s comments is
included in Appendix C.

OIG RESPONSE
While we continue to believe that organizing the folders in a systematic order would
assist in finding folders, we accept the Agency’s observation that the new system has
improved accuracy and that further improvement may occur. Therefore, we have
rescinded Recommendation 1. After the new process has been in operations for a
sufficient period of time, we will conduct a follow-up review of the Megasite. As part of
that review, we will ascertain the accuracy rate of the bar coding system and whether it
has significantly reduced the number of missing claims folders.




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)               14
                                       Appendices




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)
                                                                              Appendix A

Scope and Methodology
To accomplish our objectives, we reviewed operations at the Office of Appellate
Operations (OAO), the Disability Program Review Branches and the Megasite storage
facility to gain an understanding of how folders are requested, stored and tracked
between the Megasite and OAO Branches. In performing our audit, we:

•   Analyzed policies and procedures for the Megasite and OAO.

•   Reviewed a prior Office of the Inspector General audit report1 related to problems
    associated with requesting and obtaining Title II and Title XVI folders.

•   Reviewed internal Office of Hearings and Appeals (OHA) documentation2 related to
    problems with folder storage at the Megasite.

•   Reviewed folder storage and retrieval operations to determine how OAO and the
    Megasite process folders.

•   Interviewed Office of Systems personnel to obtain an understanding of what
    computer systems are used to inventory and track folders in the Megasite, in OAO,
    and SSA wide.

•   Tested the security operations of the Megasite.

•   Determined if there are any technical problems with Megasite Case Control System
    (MSCCS).

•   Interviewed Disability Program Branch Chiefs regarding folder retrieval and delivery
    between the Megasite and the Appeals Council.

•   Interviewed Megasite personnel regarding Megasite operations.

•   Tested the computerized inventory and the physical inventory.

•   Analyzed 2 samples of 300 folders regarding folder completeness.

•   Estimated the results of our computerized and physical inventory tests to the
    population of folders. See Appendix B for a detailed description of our sample
    methodology.

1
  Case Folder Storage and Retrieval at the Social Security Administration’s Megasite Records Center
 (A-04-99-62006) August 2002.
2
  Proposed Changes to OHA Folder Storage and Cost Benefit Analysis-Preliminary Report, Memorandum
dated December 3, 2002.
Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                      A-1
Also, we assessed the reliability of the computer-generated data produced by MSCCS.
We determined that the data was not sufficiently reliable given the audit objective and
intended use of the data. We based this determination on tests we performed which
resulted in significant problems that are described in the “Automated Inventory Records
Incomplete” section of this report. Because the use of this data could lead to an
incorrect or unintentional message, we completed additional tests to provide support for
our findings and recommendations.

We performed our field work from November 2002 until May 2003. Our audit included
an evaluation of existing controls, policies and procedures specifically related to
operations of the Megasite and folder retrieval from this facility. The entity audited was
the Megasite within OHA. We performed our audit in Falls Church and Springfield,
Virginia. We conducted our audit in accordance with generally accepted government
auditing standards.




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)               A-2
                                                                            Appendix B

Sampling Methodology and Results
Methodology

Test of Physical Inventory

To test the physical inventory, we traced a randomly selected statistical sample of
300 case folders physically located at the facility on January 23, 2003, to the Megasite
Case Control System (MSCCS). Folders are filed on shelves that are empty or partially
empty. To select the folders, we randomly selected 300 shelving units from
2,605 shelving units in the Office of Hearings and Appeals (OHA) Megasite. For each
randomly selected shelving unit, we chose the first folder stored on the left side of the
top shelf.

                           Universe       Sample        Selection           Selection
Universe                     Size          Size           Date               Criteria
All folders in the          200,000          300        01/23/03     Shelving Unit
Megasite                                                             Identification Numbers

Since we did not manually count the inventory of folders on January 23, 2003, we relied
on OHA’s estimate of folders in the Megasite as our universe.

Test of Computerized Inventory

To test the computerized inventory, we traced a randomly selected statistical sample of
300 folders recorded in MSCCS as located in the Megasite on January 28, 2003, to
their physical location within the facility.

                            Universe      Sample        Selection           Selection
Universe                      Size         Size           Date               Criteria
All folders in MSCCS        189,672          300        01/28/03     Social Security number
coded as in the                                                      (SSN)
Megasite




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                B-1
Results

Results from Test of the            Sample       Projected       Projection   Projection
Physical Inventory                   Error         Error        Lower Limit   Upper Limit
Not recorded in MSCCS                 13           8,667            5,165      13,600
Recorded in MSCCS on a                11           7,333            4,141      11,990
shelf other than the one it was
stored on

In addition,

•   two folders had a SSN on the front cover that did not match documents inside,
•   one folder had a claimant name on the front cover that did not match documents
    inside, and
•   all the folders sampled belonged in the Megasite.


Results from Test of the            Sample       Projected       Projection   Projection
Computerized Inventory               Error         Error        Lower Limit   Upper Limit
Not found at the Megasite             16         10,116             6,401      15,147

In addition,

•   three folders had a SSN on the front cover that did not match documents inside,
•   two folders had a claimant name on the front cover that did not match documents
    inside,
•   one folder had an unanticipated error in which Megasite staff entered the claimant’s
    name incorrectly into MSCCS, and
•   all folders found belonged in the Megasite.

All projections were made at the 90-percent confidence level.




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)               B-2
                                                                            Appendix C

Agency Comments




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)
                                         SOCIAL SECURITY


MEMORANDUM                                                                     32316-24-991


Date:        January 16, 2004                                                  Refer To: S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry W. Dye     /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Evaluation Report: "Operations of the Office of
            Hearings and Appeals Megasite" (A-12-03-13039)—INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report
           content and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




           Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)                C-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE OFFICE
OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “OPERATIONS OF THE
OFFICE OF HEARINGS AND APPEALS MEGASITE” (A-12-03-13039)

We appreciate the opportunity to comment on the subject draft report. The report's
findings confirm our previous review of the now obsolete system; that the old system
was not accurate. By contrast, informal reviews since November 2003 show that the
new tracking system and procedures have a current accuracy rate of 96.7 percent.
Further, we expect that the first formal inventory (currently underway and expected to
be completed in March 2004) will show a higher accuracy rate. We look forward to
OIG's follow-up audit to confirm our own findings.

It is also important to note that the methods being used to track folders during the period
of the OIG review had been in place for approximately four months. These interim
procedures were designed to transition the Megasite operations to the new tracking
procedures now in place.

While it is true that during the audit, problems with Megasite Case Control System
(MSCCS) resulted in significant downtime at the Megasite (page 5), those problems
have been corrected. As a result, except for scheduled upgrades, there have been no
periods since July 2003 when the Megasite staff was not able to use MSCCS.

Page 6 states that the Office of Hearings and Appeals (OHA) remanded 1,500 claims in
fiscal year (FY) 2002 because the folders or portions of the folders could not be located.
It is important to note that not all of the missing folders should have been in the
Megasite. OHA’s Office of Appellate Operations (OAO) receives appeals on claims
where files may be in effectuating components or other storage facilities. However, we
do not have information identifying whether the Megasite or another component should
have had the folders.

Our response to the specific recommendations is provided below:

Recommendation 1

SSA should store folders systematically by SSN, name, or other systematic
sequence rather than the current random method.

Comment:

We disagree. As evidenced by the current accuracy rate for the new system of
96.7 percent, the barcode tracking system has significantly reduced the number of
missing files. That accuracy rate is expected to increase after the first formal inventory
has been completed in March 2004. Changing the Megasite’s storage method from first




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)             C-2
available shelf to numeric sequencing would be time-consuming and costly. While we
have not conducted a study to determine the start-up cost for rearranging the almost
300,000 claim files currently stored in the Mega-Site, we believe that establishing a
numerical system would require significant additional employee time, for example, to
sort and place the folders on shelves according to numerical allocation. There is no
reason to assume that the result would be a more accurate system. Although such a
system could provide a manual backup in the event of MSCCS/Radio Beacon
downtime, the infrequency of such events would not justify the cost of establishing and
maintaining a numerical system.

Recommendation 2

SSA should ensure that all folders on the pull lists are sent to the branches.

Comment:

We agree. The Megasite has already implemented a procedure where a lead employee
conducts another search for folders that should be on a shelf but were not. All Megasite
employees are reminded, on a regular basis at regular staff meetings, to adhere to this
procedure.

Recommendation 3

SSA should ensure that the new information technology provides timely and
accurate tracking of folders in the Megasite.

Comment:

We agree. We continue to review the effectiveness and accuracy of the control
systems through periodic inventories.

Recommendation 4

SSA should enhance accountability for records management by collecting
information on the number of lost folders, remands due to lost folders, and cost
to replicate missing documents.

Comment:

We agree. OAO is investigating methods to track data on lost folders.




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)           C-3
Recommendation 5

SSA should prepare written procedures for conducting physical inventory counts
and for resolving inventory discrepancies.

Comment:

We agree. The procedures for conducting a formal inventory have recently been
finalized. OAO is in the process of preparing written procedures.

Recommendation 6

SSA should develop formal reports detailing the results of the 100 percent
inventories and the random inventories showing: a) how and when physical
inventories are conducted; b) who conducted them; c) the start and completion
dates; d) the count of folders inventoried; and e) any discrepancies noted.
Assign responsibility to review the reports and verify their accuracy.

Comment:

We agree. Procedures are already in place to track the results of the formal inventory.
Employees complete worksheets showing the shelves inventoried and the number of
folders with barcodes not recognized by the scanners. Data concerning the number of
files that should be on a shelf but are not and the number of files that are on a shelf but
should not be is obtained from the system. The results of the formal inventory are
tracked in a spreadsheet that is updated on a daily basis.

Recommendation 7

Retain inventory work sheets for follow-up and quality control purposes.

Comment:

We agree. See response to recommendation #6, above.




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)              C-4
                                                                            Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Frederick Nordhoff, Director, Financial Audit Division, (410) 966-6676

    Michael Maloney, Deputy Director, (703) 578-8844

Acknowledgments
In addition to the persons named above:

    Mary Ann Braycich, Program Analyst

    Ellen Silvela, Auditor

    Brennan Kraje, Statistician

    Annette DeRito, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-12-03-13039.




Operations of the Office of Hearings and Appeals Megasite (A-12-03-13039)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                       Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.
                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
